No. 19-515

'~n

tbe ~upreme <teourt of tbe mlniteb ~tate~
Amato v. United States of America
AFFIDAVIT OF SERVICE

I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct. On this, the 21st day of January,
2020, I filed forty (40) copies of the foregoing petition with the United States
Supreme Court electronically and via UPS Ground Transportation, and served via
electronic mail and three (3) copies of the same, via UPS Ground Transportation, to
the following:
Solicitor General of the United States

DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Emily Berger
Andrey Spektor
Assistant U.S. Attorney

UNITED STATES ATTORNEY'S OFFICE FOR
THE EASTERN DISTRICT OF NEW YORK

271 Cadman Plaza East
Brooklyn, NY 11201

Counsel to Respondent
Shelly N. G nno
Gibson Moo
ppellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 - Telephone
(804) 249-7771 - Facsimile
shelly@gibsonmoore.net

For:
David I. Schoen
Counsel of Record
DAVID I. SCHOEN,
ATTORNEY AT LAW

2800 Zelda Road, Suite 100-6
Montgomery, AL 36106
(334) 395-6611
dschoen593@aol.com

Counsel for Petitioner
Signed and subscribed before me on this the 21st day of January, 2020.

.

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. #7241026
Cc>rnrnission Exp. 4/30/2021

